IN THE SUPREME COURT OF THE UNITED STATES
No. 20-5840

 

JAMES ROBERT MILLER,
PETITIONER,
vs.
UNITED STATES OF AMERICA,

RESPONDENT.

EEE

CERTIFICATE OF COMPLIANCE

 

As required by Supreme Court Rule 33.1(h), I hereby certify that the Reply
Brief for Petitioner in Miller v. United States, No. 20-5840, complies with
the word limitations, as it contains 1,442 words

I certify that the foregoing is true and correct. Executed on December 14,
2020, at Pasadena, California.

[Ate wdow

Katherine Kimball Windsor
